.jfi

J

Case Number

m

mMmm

wmm,

LECIAL. SHORTER
Objector, Class Member and Petitioner
v.

MARY AMADOR, ET AL,
Plaintiffs Individually and as Class Representatives and Respondents
v.

LEROY BACA, COUNTY OF LOS ANGELES AND LOS ANGELES COUNTY
SHERIFF’S DEPARTMENT,
Defendants and Respondents

PROOF OF SERVICE
I, Charles Harris, do hereby declare that on this date, June 8, 2021, as required by
Supreme Court Rule 29,1 served the enclosed CORRECTED PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

r
/

The names and addresses of those served are as follows:
1. Barrett S. Litt
Lindsay B. Battles
Kaye, McLane, Bednarski & Litt, LLP 975 East Green Street
Pasadena, California 91106
2. Andrew Baum
Glaser Weil
10250 Constellation Blvd., 19th Floor, Los
Angeles, CA 90067

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 8,2021.

r '

Charles Harris

